           U.S. Department of
                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement—                       Date:    November 17, 2006
           Review of Congressional Earmarks Within
           Department of Transportation Programs
           Project No. 06A3020A000

  From:                                                        Reply to
           David A. Dobbs                                      Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Assistant Secretary
            for Budget and Programs/CFO

           In response to a request from Senator Tom Coburn, Chairman, Committee on
           Homeland Security and Government Affairs, Subcommittee on Federal Financial
           Management, Government Information, and International Security, (see
           attachment) we are initiating a review of congressional earmarks within the
           Department of Transportation (DOT).

           Consistent with Senator Coburn’s request, the objectives for this review are to
           determine (1) the total number and cost of congressional earmarks within DOT
           programs for fiscal year 2006, (2) whether earmarks are included in DOT’s annual
           planning and project evaluation processes, and (3) the effects of earmarks on
           DOT’s mission and goals.

           Our work will be conducted at DOT offices in Washington, DC, and at selected
           field locations as necessary. We plan to begin the audit the week of
           November 27, 2006, and will contact your audit liaison to schedule an entrance
           conference. The Program Director for this review is Scott Macey, and the Project
           Manager is Robert Falter. If you have any questions or require additional
           information concerning this audit, please call Mr. Falter at (202) 366-2004 or
           Mr. Macey at (415) 744-0434.

           Attachment

                                                  #
           cc: Martin Gertel
TOM COBURN, M.D.                                                                           COMMITTEE ON HOMELAND SECURITY
    OKLAHOMA                                                                                 AND GOVERNMENTAL AFFAIRS

                                                                                                           CHAIRMAN
                                                                                         SUBCOMMITTEE ON FEDERAL FINANCIAL
                                                                                                                         MANAGEMEM

                                           United $;tste~ Senate                                 GOVERNMENT INFORMATION
                                                                                                             SECURITY
                                                                                                   INTERNATIONAL
                                                                                                                         AND



                                                 WASHINGTON, DC 20510-3604                   CCMMllTEE ON THE JUDICIARY

                                                                                                          CHAIRMAN
                                                                                                      SUBCOMMITTEE ON
                                                                                               ~NcARCERATIONAND REHABILITATION


                                                                                             COMMITTEE ON INDIAN AFFAIRS
                                                      August 23,2006

               Todd J. Zinser
               Acting Inspector General
               Department of Transportation
               400 Seventh Street, S.Wfb asdf sda fsd oom 9210
               Washington, D.C. 20590

               Dear inspector General Zinser,

                       As you may know, there has been growing interest in the cost, impact, and-in      some
               cases-the ethics of Congressional earmarks.

                    I am requesting that your office conduct an independent analysis for the most recent
           fiscal year for which information is available of:

                      The total number and cost, including the cost of the earmark itself and related costs
                      such as staff time and administration, of Congressional earmarks within the programs
                      you monitor;

                      What oversight is conducted on earmarks and how this compares to the oversight
                      conducted on other expenditures such as grants and contracts; and

                      The overall impact of earmarks on the advancing the primary mission and goals of
                      the Department.

                   For the purposes of this request, a Congressional earmark should be defined as a
           provision of law, a directive, or item represented in any table, chart or text contained within a
           joint explanatory statement or a report accompanying an appropriations or authorization bill
           ihat specifies :he identity of an entity, program, prcjeci or service and the amouz$ of the
           assistance to be received.

                   Thank you for your attention to this request. If you have any questions about this
           request, please feel free to call me directly or contact Roland Foster of my staff at 224-5754.

                                             Sincerelv.




                                             Chairman
                                             Subcommittee on Federal Financial Management,
                                              Government Information, and International Security
